ACELA CAR PURCHASE
DRAFT REQUEST FOR PROPOSAL:
Additional Requirements and Pre-Award Audit Clause
Needed to Help Assess Proposed Cost and Price




                              Report No. 009-2011 | September 21, 2011
      NATIONAL RAILROAD
      PASSENGER CORPOARATION
                                         Office of Inspector General

Memorandum
To:           Jeff Martin
              Chief Logistics Officer



From:         David R. Warren
              Assistant Inspector General, Audits

Date:         September 21, 2011

Subject:      Acela Car Purchase Draft Request for Proposal: Additional Requirements and
              Pre-Award Audit Clause Needed to Help Assess Proposed Cost and Price
              (Report 009-2011)



This is our report entitled Acela Car Purchase Draft Request for Proposal: Additional
Requirements and Pre-Award Audit Clause Needed to Help Assess Proposed Cost and Price
(Report 009-2011). The objective of this audit was to review the draft request for
proposal (RFP) and determine whether it contained adequate requirements to assess the
proposed cost and price.


BACKGROUND
In August 2011, Amtrak issued an RFP to purchase 40 Acela coach cars through a firm,
fixed-price contract. These cars will be inserted into the existing Acela trainsets and
must integrate technologically as well as cosmetically with the current fleet. The
coaches are to be equipped with all current applicable modifications provided by the
original equipment manufacturer and/or by Amtrak. This includes all modifications
and alterations that are currently in the process of implementation on the Acela fleet.
Because the original equipment manufacturer holds the intellectual property required
to produce the cars and maintains the original electronic manufacturing drawings,
Amtrak plans to award the Acela coach car contract on a sole-source basis to the
original manufacturer.
                                                                                        2
                            Amtrak Office of Inspector General
                   Acela Car Purchase Draft Request for Proposal:
                 Additional Requirements and Pre-Award Audit Clause
                   Needed to Help Assess Proposed Cost and Price
                        Report No. 009-2011, September 21, 2011

RESULTS IN BRIEF
While the draft RFP required the offeror to submit a price proposal that included
necessary costs, there are two areas in the draft RFP that, if improved, would enhance
Amtrak’s ability to assess the reasonableness of the price proposal. These improvements
represent acquisition best practices that are based on the Federal Acquisition
Regulation. First, the draft RFP did not require that the offeror provide certified cost
and pricing data sufficient for a detailed assessment of the reasonableness of the price
proposal. Second, the draft RFP did not include a pre-award audit and inspection clause
providing Amtrak with access to the offeror’s supporting documentation. These gaps
occurred because Amtrak’s standard contracting policies for sole-source RFPs do not
contain specific guidance on requirements for certified cost and pricing data or a pre-
award audit clause. Without these elements, Amtrak will potentially not have sufficient
information to assess the reasonableness of the offeror’s proposal and negotiate a fair
and reasonable firm, fixed price.



RFP CAN BE IMPROVED BY ADDING REQUIREMENTS TO
HELP ASSESS COST AND PRICING DATA

When awarding a sole-source contract, best practices dictate that certain safeguards be
used. While Amtrak is not required to comply with the Federal Acquisition Regulation,
the regulation provides many best practices that serve to safeguard acquisition and
procurement actions. The Federal Acquisition Regulation requires various safeguards
when the federal government acquires goods and services on a sole-source basis. While
the draft Acela RFP contains many of the Federal Acquisition Regulation-required
safeguards, two areas exist where the draft Acela RFP and the procurement policy for
standard RFP requirements can be improved.

The Federal Acquisition Regulation safeguards help assure that the federal government
is obtaining goods and services at a fair and reasonable price. These safeguards include
the requirement that, in certain circumstances, offerors submit certified cost or pricing
                                                                                                             3
                                 Amtrak Office of Inspector General
                        Acela Car Purchase Draft Request for Proposal:
                      Additional Requirements and Pre-Award Audit Clause
                        Needed to Help Assess Proposed Cost and Price
                             Report No. 009-2011, September 21, 2011

data with their proposals, and standard clauses, such as the requirement that each RFP
include a pre-award audit and inspection clause.1


Certified Cost and Pricing Data

The Acela draft RFP did not require the offeror to submit certified cost and pricing data.
The submission requirement included in the Acela coach car draft RFP stated:

        “Submit the Price Proposal on a firm fixed price basis (to include a breakdown of
        pricing as indicated) and include all costs of design, manufacture, labor,
        materials, tools, supplies, insurance, bonds or guarantees, and any other items
        necessary to successfully supply the Supplies described herein.”

This practice is not consistent with Amtrak’s procurement policies for contract
modification, which require construction contractors to submit certified cost or pricing
data in specified formats.2 For example, Form 26CP, Certification of Cost or Pricing Data,
requires the contractor to certify that its proposed costs are accurate, complete, and
current at the time of submission. Also, Form 25, Request for Cost Proposal, requires the
contractor to specifically identify the direct and indirect costs that support the proposal.
The draft Acela coach car RFP did not require the offeror to certify that its cost and
pricing data were accurate, complete, and current, nor did it require the additional
forms that specifically identify direct and indirect costs.


Audit and Inspection Clause

The standard RFP used by the Procurement Department for the Acela coach car
purchase did not include a pre-award audit and inspection clause. Such a clause would
ensure that our office, Amtrak, or its representatives have access to the offeror’s
supporting documentation, historical records, and personnel that support the
development of the offeror’s proposal. We analyzed Amtrak’s general provisions and
identified the audit and inspection clause that is effective for established contracts.


1 The Federal Acquisition Regulation, section 2.101, defines certified cost or pricing data as cost or pricing
data in which the offeror states that “...to the best of the person’s knowledge and belief, the cost or pricing
data are accurate, complete, and current as of the date certain before the contract award.”
2 The contact modification forms include forms 24EC, 25, 26CP, 27CP, 27FB, 27L, 27LB, 27M, and 27SP.
                                                                                               4
                             Amtrak Office of Inspector General
                    Acela Car Purchase Draft Request for Proposal:
                  Additional Requirements and Pre-Award Audit Clause
                    Needed to Help Assess Proposed Cost and Price
                         Report No. 009-2011, September 21, 2011

Using that, we identified the following elements that appear appropriate to establish an
effective audit and inspection clause for RFPs:

      A. Offeror acknowledges and agrees that Amtrak’s Office of Inspector General
      (OIG), Amtrak, or other Amtrak representatives, with reasonable notice, may
      inspect, copy, and/or audit offeror’s data and records (in hard copy and/or
      electronic format) related in any way to the proposal. This includes, without
      limitation, all data and records relating to support for all direct and indirect costs
      or prices to be charged to Amtrak, as required in this request for proposal.
      B. In connection with audit and inspection activities, Amtrak OIG or other
      Amtrak representatives shall be afforded, upon request, (1) access to offeror’s
      facilities, (2) the opportunity to interview offeror’s employees concerning any
      matter relating to the proposal, and (3) adequate and appropriate workspace.
      C. Nothing in this proposal shall be construed to limit the rights, obligations,
      authority, or responsibilities of Amtrak OIG pursuant to the Inspector General
      Act of 1978, as amended.
      D. The offeror acknowledges that the information resulting from the audit may be
      used in negotiations leading to a final contract award price.


CONCLUSION

Procurement policies do not require that specific cost and pricing data or a pre-award
audit clause be included in the Acela or any other RFP. Amtrak established general
policies for Procurement Department personnel, emphasized procurement best
practices, and encouraged the use of standard forms. However, without a requirement
for items such as certified cost and pricing data or an audit clause in the pre-award
process, Amtrak is potentially missing essential elements in sole-source procurements—
elements that would help ensure that it is getting a fair and reasonable price.
                                                                                         5
                            Amtrak Office of Inspector General
                   Acela Car Purchase Draft Request for Proposal:
                 Additional Requirements and Pre-Award Audit Clause
                   Needed to Help Assess Proposed Cost and Price
                        Report No. 009-2011, September 21, 2011

RECOMMENDATIONS

We recommend that you make the following revisions to the Acela RFP and amend
Amtrak’s procurement policy to require these revisions in all sole-source RFPs in excess
of Amtrak’s small dollar procurement threshold (currently $100,000):

1.   Require the offeror to submit certified cost and pricing data similar to Cost
     Proposal Forms numbered 24EC, 25, 26CP, 27CP, 27FB, 27L, 27LB, 27M, and 27SP.
     As these forms are designed for construction contract modifications, they should
     be revised to apply to new sole-source solicitations.

2.   Add a pre-award audit and inspection clause that contains the elements or
     provisions discussed in this report.



MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, Amtrak management agreed with both
recommendations. Amtrak officials noted that they had implemented our
recommendation to revise the Acela RFP, and that those revisions were reflected in the
RFP that was issued on August 30, 2011.

Subsequent to receiving management’s comment letter, we discussed with senior
procurement officials Amtrak’s plans for addressing our recommendation to revise its
procurement policies. The officials advised us that Amtrak plans to update the standard
forms for sole-source RFPs over the small dollar procurement threshold by
November 30, 2011. We agree that a dollar threshold is appropriate; our final
recommendation includes the $100,000 threshold. We believe the actions Amtrak has
taken and plans to take will meet the intent of our recommendations. Amtrak’s letter
commenting on the draft report is reprinted as Appendix 1. The Company also
provided separate technical comments, which we have incorporated as appropriate.

Thank you for your cooperation during the course of this audit. If you have any
questions, please contact me (david.warren@amtrakoig.gov, 202.906.4742) or
Matthew Simber, Senior Director, Audits (matt.simber@amtrakoig.gov, 215.349.1077).
                                                                       6
                            Amtrak Office of Inspector General
                   Acela Car Purchase Draft Request for Proposal:
                 Additional Requirements and Pre-Award Audit Clause
                   Needed to Help Assess Proposed Cost and Price
                        Report No. 009-2011, September 21, 2011



cc:   D.J. Stadtler, Chief Financial Officer
      William Herrmann, Managing Deputy General Counsel
      Gordon Hutchinson, Controller
      Bernard Reynolds, Deputy Chief Logistics Officer
      Jessica Scritchfield, Senior Director, Internal Controls/Audit
      Virginia Squitieri, Senior Director, Procurement
                                                             7
                   Amtrak Office of Inspector General
          Acela Car Purchase Draft Request for Proposal:
        Additional Requirements and Pre-Award Audit Clause
          Needed to Help Assess Proposed Cost and Price
               Report No. 009-2011, September 21, 2011

                           Appendix 1

COMMENTS FROM AMTRAK'S CHIEF LOGISTICS OFFICER
                                                                                        8
                            Amtrak Office of Inspector General
                   Acela Car Purchase Draft Request for Proposal:
                 Additional Requirements and Pre-Award Audit Clause
                   Needed to Help Assess Proposed Cost and Price
                        Report No. 009-2011, September 21, 2011

                                      Appendix 2

                       SCOPE AND METHODOLOGY
We performed audit work from July 25 through August 8, 2011, in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We met with procurement staff to determine Amtrak’s timeline for issuing the RFP and
making the contract award, and discussed the draft RFP requirements and procurement
policies and practices for sole-source contract awards. We reviewed the draft RFP for
the Acela coach car purchase, corresponding pre-award policies and procedures, and
procurement policies and related forms for contract modifications. We reviewed the
Federal Acquisition Regulation relating to new awards and sole-source procurements.
We did not request any computer-processed data for this audit and, therefore, did not
rely on any computer-generated information. This portion of our audit work was
specifically designed to test the internal controls over Amtrak’s policies and procedures
for RFP issuance. We also reviewed our recent procurement report (Amtrak Should
Negotiate a Price Adjustment to Contract S 063 03069 Based on OIG-identified Cost
Reductions, OIG Report 219-2010, January 12, 2011); however, that audit focused on the
price proposal only and did not review the RFP.
                                                               9
                     Amtrak Office of Inspector General
            Acela Car Purchase Draft Request for Proposal:
          Additional Requirements and Pre-Award Audit Clause
            Needed to Help Assess Proposed Cost and Price
                 Report No. 009-2011, September 21, 2011

                              Appendix 3

                        ABBREVIATIONS

OIG   Office of Inspector General

RFP   request for proposal
                                                                      10
                            Amtrak Office of Inspector General
                   Acela Car Purchase Draft Request for Proposal:
                 Additional Requirements and Pre-Award Audit Clause
                   Needed to Help Assess Proposed Cost and Price
                        Report No. 009-2011, September 21, 2011

                                    Appendix 4

                               TEAM MEMBERS

David R. Warren, Assistant Inspector General, Audits

Colin Carriere, General Counsel

Kathleen Ranowsky, Deputy Counsel

Matthew Simber, Senior Director, Audits

David Burrell, Principal Auditor

Michael P. Fruitman, Principal Communications Officer
                                                                                   11
                         Amtrak Office of Inspector General
                Acela Car Purchase Draft Request for Proposal:
              Additional Requirements and Pre-Award Audit Clause
                Needed to Help Assess Proposed Cost and Price
                     Report No. 009-2011, September 21, 2011

         OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission       Amtrak OIG’s mission is to

                              conduct and supervise independent and objective audits,
                               inspections, evaluations, and investigations relating to
                               agency programs and operations;

                              promote economy, effectiveness, and efficiency within
                               Amtrak;

                              prevent and detect fraud, waste, and abuse in Amtrak’s
                               programs and operations;

                              review security and safety policies and programs; and

                              review and make recommendations regarding existing
                               and proposed legislation and regulations relating to
                               Amtrak's programs and operations.

Obtaining Copies of OIG    Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste,    Report suspicious or illegal activities to the OIG Hotline
or Abuse                   (you can remain anonymous):

                           Web:      www.amtrakoig.gov/hotline
                           Phone:    800-468-5469

Congressional and          E. Bret Coulson, Senior Director
Public Affairs             Congressional and Public Affairs
                           Mail:    Amtrak OIG
                                    10 G Street, N.E., 3W-300
                                    Washington, D.C. 20002
                           Phone:   202-906-4134
                           Email:   bret.coulson@amtrakoig.gov
